 Department                of Health       and Human        Servces
                   OFFICE OF

              INSPECTOR GENERAL





STATE CHILD SUPPORT ENFORCEMENT

     CRITERIA FOR TARGETING

         MEDICAL SUPPORT





                      VIQ.

                                       Richard P. Kusserow
                                       INSPECTOR GENERA
                "0



                     d3a                   OEI-07-9000120
                     EXECUTIVE SUMMAR Y

PURPOSE

The objectives of this study were to determe what criteria have been developed by
State Child Support Enforcement agencies to target cases with a high potential for
medical support and to identif the most effective criteria and practices.

BACKGROUND

Federal regulations amending the Chid Support Enforcement program went into
effect on March 10 , 1989. These regulations expanded Child Support Enforcement
mandates to 
 require all State Child Support Enforcement agencies to develop wrtten
criteria to identify existing cases with a high potential for obtainig medical support.


Two previous inspections found that the Medicaid program would save more than
$32 milion annually if employer provided health insurance had been used to pay for
the medical care of dependent chidren.

METODOLOGY

This inspection is based on the analysis of information and targeting criteria collected
from the 50 States , the District of Columbia , Guam , Puerto Rico and the Virgin
Islands.

We asked each State Child Support Enforcement agency                   to provide us with a copy
of any targeting criteria they had developed as of June 1 , 1990, and for the name
and telephone number of a person within their agency whom we could contact to
gather inormation. Following receipt and initial analysis of the targeting criteria
information , we conducted telephone intervews with the contact persons identifed by
each State Child Support Enforcement agency.

            we used regression analysis to analyze inormation collected durig the
In addition ,
most recent of our first two studies. We conducted this analysis to determe which
criteria would be most important in identifg cases with potential Medicaid savigs.

FIINGS
Only     46     percent of the States had creri in place as of   Jun       1990.

'Absent paren employe(' is the creri mot lily to            prode availble health
inance.
On   48    peen of th State
inlug meal support
                                can   mo extig cour ord for th sole pure
Th   deelopm and appliatin of targetig crer            var frm State-to-State

RECOMMATIONS
Th   Admistin for Chilen and Famil (ACF)                 shoul   enforce cuent   regtions
regarding the targetig of   mecal support and place adnal empha             on it
importance.

Among the recommended actions are that the ACF

          enforce current regulations requiring States to develop criteria to target cases
          with a high potential for medical support

          include the review of targeting criteria in the medical support portion of their
          Program Results Audit Guide

          provide technical support to States which have not yet developed targeting
          criteria , and

          provide State Child Support Enforcement agencies with a list of the criteria
          we found most significant in the detection of absent parent   health insurance
          and potential medical savings.

Th ACF shoul reqire States, as a condn of partipatin, to have leglatin which
woul allw the to moif cour ord for the sole             pue
                                                    of inluing meal
suport
Th   ACF shoul inlu consation of meal support whe restrtug inentie
payts.
AGENCY COMMNT

Both the ACF and the RCF A generally concur with the recommendations presented
in this report. Their verbatim comments can be found in Appendices E and F.
                   . .. .. .. .. ... ... ... .... .... .... .... .... .... .... ............................................................................................................. .... .... ... ... ... ... .. .. . .   . . ..



                                   TABLE OF CONTENTS

EXECUTIVE SUMY

INODUCTION. . 
                                                                                                                                                                                             . . . . . . . . . 1




   Purpose
                                                                                                                                                                       . . . . . . . . . . . . . . . 1




   Background. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


   Methodology                                                                                                                                                                                . . . . . . . . . . . . 2

FININGS                                                                                                                                                                      . . . . . . . . . . . . . . . . 4

   Only 46 percent of the States had criteria in place

                as of June 1                       , 1990 ......................................                                                                                                                                         4


    Absent parent employed" is the criterion most likely

         to produce available health insurance. . . . . . .                                                                                                        . . . . . . . . . . . . . . . . . . 5




   Only 48 percent of the States can modify existing court

         orders for the sole purpose of including medical

         support                                                                                                                                                                                  . . . . . . . . . . . 6

  The development and application of targeting criteria
        varies from State- to- State ................................. 6


RECOMMENDATIONS                                                                                                                                                                                                         . . . . . . 9

APPENDICES


  State Targeting Criteria Development Report Card. . . . . . . . . . . . . . . . . . A-

  Summary of Regression Analysis                                                                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. B-
  Targeting Criteria Selected by States . . . . . . . . . . . . . . . . . . . . . . . . . . .. C-

  Calculation of Per- Case Medicaid Savings. . . . . . . . . . . . . . . . . . . . . . . . . D­

  ACF Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                                                   . . . . . . .. E­
  HCFA Comments                                                                                                                                                                                                . . . . .. F­
                             INTRODUCTION

PUROSE
The objectives of this study were to determine what criteria have been developed by
State Child Support Enforcement agencies to target cases with a high potential for
medical support and to identify the most effective criteria and practices.

BACKGROUN
Federal regulations amending the Child Support Enforcement program were
published September 16 , 1988. These regulations amended 45 CFR 306. 51(b) by
adding a new paragraph at 306. 51(b)(3) which expanded Child Support Enforcement
mandates to 
require all State Child Support Enforcement agencies to develop written
                                 with a high potential for obtaining medical support.
criteria to identify existing cases
Federal regulations issued March 10 , 1989 informed the public that the provisions of
section 306. 51(b )(3)   were in effect.

These regulations require the States to develop criteria based on (1) evidence that
health insurance may be available to the absent parent at a reasonable cost; and
(2) facts , as defined by State law, regulations , procedures or other directives which
are sufficient to warrant modification of the existing support order to include health
insurance coverage for a dependent child(ren). It further requires State Child
Support Enforcement agencies to petition the court or administrative authority to
modify support orders for targeted cases identified to include medical support in the
form of health insurance coverage , even if no other modification is anticipated. In
addition , Federal regulations issued May 15 , 1991 require each State to establish
guidelines which " provide for coverage of the child(ren)'s health care needs.
In two previous inspections conducted by the Offce of Inspector General , we found
that the Medicaid program would save more than $32 milion annually if employer
provided health insurance had been used to pay for the medical care of dependent
children.

The first inspection report , entitled " Child Support Enforcement/Absent Parent
Medical Liability, " OAI- 07- 86- 00045 , was issued in September 1987. That inspection
reviewed a sample of Child Support Enforcement cases in which a new or amended
court order was established during a 3-month sample period , and the absent parent
had made at least one child support payment. In our review, we found that 60
percent of the absent parents in the sampled cases had dependent health insurance
available through their employers , and that nationally, the Medicaid program would
have saved $33 894 507 annually if such employer-provided health insurance had paid
the dependents ' medical expenses.
The second inspection report , entitled " Coordination of Third- Part Liabilty
Information Between Child Support Enforcement and Medicaid " OAI- 07- 88- 00860
was issued in December 1989. That inspection reviewed another sample of Child
Support Enforcement cases which met the criteria set forth in the 1987 study. In
this inspection , we determined that health insurance coverage was available to the
dependent children through the absent parents ' employers in 48 percent of the cases
(compared to 60 percent 2 years before). We projected national Medicaid savings of
$32 112 270 annually if State Child Support Enforcement agencies adequately detect
and pursue available dependent health insurance and absent parents had their
dependents enrolled. We also found that State Child Support Enforcement agencies
did not routinely collect health insurance information and that the Offce of Child
Support Enforcement (OCSE) Program Results Audit Guide inadequately addressed
medical support.

MEllODOWGY
This inspection is based on a regression analysis of data collected in the 1989
inspection , plus the analysis of information and targeting criteria collected from the
50 States , the District of Columbia , Guam , Puerto Rico and the Virgin Islands. For
ease in understanding, we will refer to each of these entities as States throughout this
report.

We used two separate methods of data collection to obtain information about States
targeting criteria. We asked each State Child Support Enforcement agency to
provide us with a copy of any targeting criteria they had developed , as of June 1
1990 , to target child support cases with a high potential for medical support.
also asked them to provide us with the name and telephone number of a person
within the Child Support Enforcement agency whom we could contact to gather
information regarding development and implementation of the criteria.

Following receipt and initial analysis of the targeting criteria information , we
conducted telephone intervews with the contact persons identified by each State
Child Support Enforcement agency. During these intervews we solicited information
regarding who developed the criteria , the basis for criteria selection , when the
criteria were developed , and what guidance and/or time frames the Administration
for Children and Families (ACF), formerly the Family      Support Administration , Office
of Child Support Enforcement (OCSE) provided regarding the development of
targeting criteria. We also asked: (1) whether or not child support cases in their
State are reviewed for the sole purpose of identifyng medical support; (2) if they
modify court orders for the sole purpose of including medical support; (3) for
information regarding the effectiveness and success rate attached to their criteria;
and (4) for effective practices regarding the identification and development of
medical support which could be shared with other State Child Support Enforcement
agencies.
                                                  , "




In addition ,
            we conducted an analysis of information collected during the 1989
inspection to determne what criteria would be most important in identifyng cases
with potential Medicaid savigs. The 1989 inspection data consisted of information
collected durig our review of a random sample of 214 child support cases in eight
States.

We used regression analysis to determine the criteria most indicative of cases with
savigs. Specifcally, logistic regression analysis was used since the values for savings
were transformed from a dollar amount to a yes/no variable. 1   This   analysis
considered all independent variables simultaneously to produce the predictive model.




          Ron N. Forthofer and Robert G. Lehnen Public Program Analysis - A New
Categorical Data Approach "   Lifetie Learning Publications, Belmont, California
1981.
                                   FINDINGS


On   46    peen of th State ha crer         in place as of Jun         199.

As of June 1, 1990 , more than 20 months after publication of the final regulations
and over 14 months after their effective date , only 25 (46 percent) of the 54 States
( entities) had implemented criteria to target cases with high potential for medical
support. Twelve      States had developed criteria , but not yet implemented them. The
remaining 17 States had not developed criteria as of June 1,          1990.


Of the 29 States which     had not implemented criteria:

          12 had developed targeting criteria , but not yet implemented them;

          8 were currently developing targeting criteria;

          3 anticipated developing targeting criteria sometime in the future; and

          6 anticipated no development of targeting criteria.

The following chart depicts the status of targeting criteria development in all 54
States (entities).



           Status of Targeting Criteria Development
                                      (June 1 ,   1990)



                                                    None Anticipated
                                                         11%

                                                              Future Development


                  Developed
                     and                                          Being Developed
                 Implemented                                            15%
                     46%



                                                          Developed, but

                                                      Not Implemented

                                                              22%
                       , "




A " Development Report Card" depicting the status of targeting criteria development
by State is shown in Appendix A

Absent paren    emploe4' is the   crn mo        lily to   proe availble healt
innce.
Of all the information variables in the 1989   sampled case files (see Appendix B), we
identified knowledge of " absent parent employment" as the criterion most significantly
related to the probabilty of obtaining Medicaid savings. We determined that cases
in which the absent parent is employed are three times as likely to generate savings
as cases where the absent parent is unemployed or employment is unknown. As
shown in Appendix C absent parent employed" was also the criteria most often
selected by the States.

As shown in the following chart , when all criteria/variables available from the case
files were considered , six were identified by the regression analysis as statistically
signficant in terms of their effect on savings.


                             Crier Most   Likly to Idetify Caes
                                   wih Medicaid Savigs


                                                   Percent of     Percent of
                                                   Cases with     Total
       Criteria/Variable                           Savings        Savings

       Absent Parent Employed

       Wage Withholding

       AFDC Application Complete

       Absent Parent Age
               18- 24 years
               31- 40 years

       Original Court Order


Although these six variables were identified as significant, only one variable , absent
parent employed , appeared in the model. This is due to the fact that once absent
parent employed was identifed , the other variables did not add to the prediction
model of a case with savings. The full results of the regression model are presented
in Appendix B.

On   48
          peen of th States can moif exg cour ord for th sole purse of
inclug meal support
Less than half (26) of the 54 States can modify court orders for the sole purpose of
including medical support. Further , only eighteen (72 percent) of the 25 States with
targeting criteria in effect and only 8 (67 percent) of the 12 States with criteria
developed and awaiting implementation , can modify court orders for the sole
purpose of including medical support. That means that in 11 (30 percent) of the
37 States with criteria already developed , even if medical support is found , the case
cannot be modified to include it unless some other modification is also taking place.
This renders the criteria useless in cases where no other modifications are required.

Th   deelopment and applicatin of targetig creri           vari frm State-to-State.

Most States selected absent parent employed and wage assignments , the same top
two criteria identified in our regression   analysis ,   as the criteria most likely to target
cases with a high potential for medical support. Absent parent employment was
selected as a criterion to target cases for medical support by 22 (59 percent) of the
37 States with criteria in effect , making it the most popular criteria. Eighteen
(49 percent) selected wage assignments as one of their criteria, making it the second
most popular criterion. In total, States reported using 21 different criteria (see
Appendix C). The number of different criteria selected for use varied from 1 to 5
per State. 

State Child Support Enforcement staff developed the criteria in 29 (78 percent) of
the 37 States. The particular staff named as having been instrumental in the
development were program administrators , directors, deputy directors , case workers
case managers , operations staff, policy and procedures staff, planning and program
development staff. The eight other State Child Support Enforcement agencies also
enlisted the assistance of other State and county employees in developing their
criteria. Four of the eight enlisted the assistance of State, district and Child Support
Enforcement attorneys. Two worked in conjunction with the State Medicaid/medical
care agency, one received assistance from OCSE , and another worked with State
employment division staff to develop their criteria.

Previous experiences and/or Federal regulations were the basis for criteria selection
in 34 (92 percent) of the 37 States. The States also identified recommendations
from other State Child Support Enforcement agencies , what their State laws would
permit , OCSE assistance , and their own research as determining factors in the
selection of targeting criteria.
Only 10 (40 percent) of the 25 States that have implemented criteria review child
support cases for the sole purpose of detecting medical support. The other 15 States
(60 percent) review for medical support only in conjunction with other reviews. In
these 15 States ,   the persons intervewed made the following comments:

        We have not been required to review cases for the sole purpose of medical
       support.

        It would be sily to look at a case just for medical support.

        Child support modification is the big thing.

A majority (16 of 25) of the States that have implemented targeting criteria use
automated systems to identify cases which meet their criteria. Eight States
(32 percent) use a manual review system. The other State uses a combination of
both manual and automated review.

Child Support Enforcement caseworkers are     responsible for processing targeted cases
in 17 (68 percent) of the 25 States with targeting criteria in effect.   Processing is
handled by a    specialized person or team in four States and the legal division
three. One State uses a processing method in which their automated system
automatically generates letters to absent parents and employers in cases which meet
their criteria.

Only three States were able to tell us how many cases they have flagged which meet
their established criteria. One State , which uses a manual system of review to
identify cases , estimates they have identified less than 20 cases in the 4 months since
they began using their criteria. The other two States use an automated method of
case identification. One of those States estimates they have flagged between 5 000
and 6 000 cases in the 9 months since their criteria became effective. Their
automated system conducts a monthly match of cases which meet the established
criteria , as well as conducting its own simulated calculations to identify cases where
changes have occurred in the absent parent s financial status. The other State is
involved in a pilot project in which they review cases on a county-by-county basis.
They reported the identification of 16 absent parents with available dependent health
insurance in the 6 months since they began using their criteria. None of these States
had calculated the Medicaid savings for cases targeted by their criteria.

Even though they had no statistics regarding the success of targeting criteria , one
State provided us with information regarding a survey they completed in five of their
offces. Based on this survey, they estimate that in Aid to Familes with Dependent
Children (AFDC) cases , approxiately 35. 8 percent of the absent parents have
medical insurance available through their employers but do not have their
dependents enrolled. By applying that percentage to the total number of cases in
their State , they projected an annual Medicaid savings of $2 827 703.
                   RECOMMENDATIONS

Th   ACF shoul enforce cuen      regtins regardg th targetig of meical support
and place   adnal empha        on it   importe.
To accomplish this , we suggest that ACF

       enforce current regulations requiring States to develop criteria to target cases
       with a high potential for medical support

       include the review of targeting criteria in the medical support portion of their
       Program Results Audit Guide

       provide technical support to States which have not yet developed targeting
       criteria , and

       provide State Child Support Enforcement agencies with a list of the criteria
       we found most significant in the detection of absent parent health insurance
       and potential medical savings.


ThACF shoul reqire States, as a condn of partcipatin, to hae lelatin which
woul allw the to moif cour ordrs for th sole pure of inluing meical
support

The ACF developed a Notice of Proposed Rulemaking (NPRM) which would add
the ability to modify for medical support to the conditions for participation in the
child support enforcement program. This NPRM , published August 15 , 1990
proposes that a States s procedures be required to treat the availability of reasonably
priced health insurance as adequate grounds to petition for modification of a child
support order. The ACF should finalize these regulations expeditiously.

This requirement will address the problem we found in some States , where
modification of orders is extremely diffcult to initiate because the basis for access to
the courts for modification is very narrowly defined. We also believe , as stated in
the NPRM , because of the value of providing medical support for children , the
 States ' procedures must define the availabilty of health insurance coverage as
suffcient to warrant seeking modification of the order.
Th   ACF shoul      inlu constin of meal support whe restug                    inene
pay.
States receive incentive payments designed to encourage them to develop programs
emphasizing collections on behalf of all children and improvig program
effectiveness. These incentive payments range from 6 to 10 percent of all chid
support collections , based upon each States ' individual collection/cost ratio. Directing
some of these Federal incentive payments toward medical support would reward
States performing well in the area of medical support.



AGENCY         COMM
The ACF generally concurs with the recommendations presented in this report, and
has taken several actions to address our concerns. They have developed a legislative
proposal to change incentive payments to " encourage States to increase the amount
of servces being provided to familes and... take into account performance areas
deservng positive recognition. " They indicated that " this proposal , in combination
with the proposed regulation on treating the availabilty of reasonably priced health
insurance coverage as grounds for petitioning for modification of the support order
demonstrates (they) are considering medical support in the restructuring of incentive
payments. " The ACF' s verbatim comments can be found in Appendix E.

In general ,   the HCF A also concurs with the recommendations presented in this
report. They are particularly interested in the recommendation which encourages the
ACF to consider medical support when restructuring incentive payments. They
stated that " the ACF' s current incentive structure acts as a disincentive to medical
support enforcement. " They " strongly support efforts to change the method of
calculating incentive payments for ACF to include medical support.

In response to the RCFA' s specific comments , we have revised the report to clarify
that regulations require all State Child Support Enforcement agencies to develop
wrtten criteria to identify " existing " cases with a high potential for medical support.
The RCF A also indicated that it was unclear from this report whether or not the
$32 milion annual savings reported in two prior reports would be saved if States
developed and applied wrtten criteria for targeting cases with a high potential for
medical support. We want to clarify that the $32 millon annual savigs results from
adequate detection and pursuit of available group health insurance. The
development and application of targeting criteria would assist States in the realiation
of such savings. The RCF A' s verbatim comments can be found in Appendix F.
                                                                    Appendix A


  Targeting Criteria Development                         Report Card


   State
                     DeveloDed/
                     effec:i'
             by )6/01/90 bole!e
                                    c,
                                le Deve!o:e:
                                    te:
                                   But  Under Future
                                                  Development
                                     Develooment Anticipated
tHHtHHHtHtHtHHtHHHHHHtHHHtHfHHHfHfHtHHfHfHHHtHHfHfHfHtHHHHfHHHHHHfHHHH
AlasKa
                                                                      Develooment
                                                                      Anticioated


Alabaaa
ArKansas
Arizona
Caiifc!'nia
Colorado
Connecticut
Dist. Coiu

DelaMare
Florida
Seor;i a

Sual
HaHai i
Iowa
Ir.di ' 3r.a
!linois
Indiana
Kansas
Kentuck'
Leui 5i ana
"a5sac u!:et
 arvland
 al
 ichigai1
  innesota
l'issc!Jri
l1issi:siopi
 on   tana
North ':aro! ina
North        akota
NebrasKa
NeM Halosh i re
New JerS2Y
New     e;( i::
Nevada
NeM 'fcr
Ohi 0
Okl anoIa
      gcn
Pennsyl vania
Puerto Ri co

Rhode Island
South Carol ina
South Dakota

Tennesse!:
iexas
Utah
Virginia
Virgin Islands
Vermont
Washington
Wisconsin
Nest Virginia
Wyoming


Total                  25 (46:       12 12:1   8 (IS:)     3 16:)         6 1m:
                                                              Appendix B

                Summary of Regression Analysis

                    (1989 Inspection Variables)

                                   MODEL            % OF
                         UNADJ.    ADSTED           CASES               % OF
                         ODDS      ODDS     FALSE   WITH    SAVINGS     TOTAL
VARIABLES                RATIO     RATIO            SAVINGS FOUND       SAVINGS

ABSENT PARNT AGE
 UNKNOWN                                                    $ 5, 397
  18-24                  1.66                               $ 4, 626        65%
  25-30                  1.03                               $ 8, 171    17. 05%
 *31-40                  1. 95 *     21 *                   $21, 638    45. 15%
  41 & UP                                                   $ 8, 093    16. 89%
ABSENT PARNT EMPLOYED

  NOT EMPLOYED                                              $ 2, 681
 *EMPLOYED                 26 *                             $45 244     94. 41%
AFDC APPLICATION
  INCOMPLETE                                                $36 954
  COMPLETE               1.09        11 *                   $10 971     22. 89%
  NOT IN FILE                                               $36 696
  IN FILE                                                   $11, 229    23. 43%
TYPE OF CASE

  PATERNITY                                                 $19, 822
  DIVORCE                1. 03     1.41                     $28, 023    58 . 47%

MONTHLY SALAY
  ..$1, 000                                                 $35, 797
   $1000                 1.41      1.24                     $12, 178    25. 41%
NUBER OF CHILDREN
  ONE CHILD                                                 $38, 748
  2 , 3 OR 4 CHILDREN              1.05                     $ 9, 177    19. 15%
TYPE OF PAYMNT
  VOLUNTARY                                                 $10 803
 *WAGE ASSIGNMNT         1.98      1.97                     $27, 588    57. 56%
MONTHLY SUPPORT AMOUN ORDERED
  ..$100                                                    $35, 243
    $100                 1.52                               $12, 682    26. 46%
TYPE OF ORDER

  AMNDED OR PATERNITY                                       $11, 940

  DIVORCE                                                        937      1. 96%

  ORIGINAL               1.37      1.94                     $35, 048    73. 13%

* Variables considered significant in the detection of available health
insurance based on probability of . 1 or less.
                           &.



  DEPARTMENT OF HEALTH          HUMA SERVICES




                                                               Appendix E

Date:     June 24 , 1991

To:	          Richard P. Kusserow
              Inspector General

From:         Jo Anne. B. Barnhart
              Assistant Secretary
                for children and

Subj ect :	   Comments on Office     nspector General Draft
              Report, "State Child Support Enforcement criteria for
              Targeting Medical support " OEI-07-90-00120


Thank you for forwarding your draft report for our review. We

agree that importance must be attached by the States to the

effective and efficient implementation of criteria for targetin
cases for medical support modification. Several actions have
already been taken to address concerns in this particular area.
Since your report does not portray these endeavors, we will
discuss them within the context of your specific recommendations.
Our specific comments concerning          the report' s   recommendations
follow:
IG Recommendation

The ACF should enforce current recrlations reaardina the

taraetina of medical support and place additional emphasis

on its importance

OCSE Comment

We are taking the first three specific recommended actions:

              We are enforcing current regulations requiring

              States to d"evelop criteria to target cases with a

              high potential for medical support. The

              regulation became effective in the middle of FY

               1989. In    der to assure equitable treatment of
              all States, the requirement for States to develop
              the criteria is being audited for substantial
              compliance effective with audit periods beginning
              on or after October      1, 1989.
                                             These audits are
              currently being  conducted.
               The review of targeting criteria is , of course,

               now included in the medical support portion of the

               Program Resul ts Audit Guide.

 ...             ...                              ..       .. .




Page 2 -   Mr. Richard Kusserow



           As we have stated in previous memoranda, we are

           invol ved in a concerted effort, wi th the Health
           Care Financing Administration (HCFA) to improve
           overall medical support performance. As part of
           this effort, OCSE and HCFA regional staff are
           conducting j oint reviews of the full gamut of the
           States ' medical support programs and providing
           reports of problems and recommendations to resolve
            them.  To date, twenty-eight states have been
           reviewed in this manner. A review protocol has
           been developed for national use in the reviews.
           This protocol prominently features the case
           targeting requirement as one of the purposes of
            the review and ensures that the issue is
            adequately addressed.
We will gladly provide the state agencies with a list of the

criteria which you found most significant in the detection

of absent parent health insurance and potential medical

savings.
IG Recommendation

The ACF should reauire States, as a condition of
participation, to have leqislation which would allow them to
modifv court orders for the sole purpose of includinq
medical support

OCSE Comment
                                                                 as a

 Final rules published May 15, 1991, state that, "
 condition for approval of (a) state plan,

    guidelines. . . for setting and modifying child support

 awards. . . must. . . provide for the child (ren ' s) health care

 needs, through health insurance coverage or other 
           means. II
 In addition, OCSE published a proposed regulation which

 states that the "     ... availability of
                                of' must
                                                 reasonably priced health
 insurance coverage.. .                  be treated " as adequate
 grounds for petitioning for modification of the
(support)
 order. II The final regulation            is under development.

 IG Recommendation
 The ACF should include consideration of medical support when
 restructurinq incentive pavrents
 OCSE Comment

 We have developed a legislative proposal to change incentive

 payments to "   encourage states to increase the amount of

 services being provided to families and...
                                     
      take into account
Page 3 -   Mr. Richard Kusserow



performance areas deserving positive recognition.    n The
                                            ... for. each
proposal provides that payment of a bonus
obligation established or modified...   This proposal, in
combination with the proposed regulation on treatinq the
availability of reasonably priced health insurance coverage
as qrounds for petitioning for modification of the support
order, demonstrates that we are considerinq medical support
in the restructurinq of incentive payments.
                                                                               Health Care
           DEPARTMENT OF HEALTH &. HUMAN SERVICES                              Finar.cing Administration


4Ia

          J1    I 9   199
                                                                               Memorandum
Date                                                                             Appendix F
          Gail R. Wilensky, Ph.

                                      M(\
From      Adminstrator
Subject   OIG Draf Report: "State Child Support Enforcement Criteria for Targeting
          Medical Support" (OEI- 07- 90-00120)

          Inspector General
          Offce of the Secreta


             Thank you for the opportunity to review the subject draf report Although the
          report does not contain any direct recommendations for our Agency, we have
          provided comments.

              In general , we are supportive of all the recommendations identifed in the report.
          We are particularly interested in the third recommendation which encourages the
          Adminstration for Children and Families (ACF) to consider medical support when
          restrcturig incentive payments. The ACF' s current incentive structure acts as a
          disincentive to medical support   enforcement.   We strongly support efforts to change
          the method of calculating incentive pavrents for ACF to include medical support.

             Although we are hopeful that the incentive structure could be revised , the
          recommendation may not be strong enough to bring about the desired result. The
          recommendation states that ACF         consider
                                                 should      medical supportwhen
          restructurig incentive   payments. Restructurig incentive payments would require
          the enactment of Federal legislation to provide ACF with the authority to revise its
          incentive structure. Therefore , we suggest that GIG make its recommendation along
          these lines.

             Weare workig with ACF to improve interaction between our respective
          programs. In June 1990,      a joint work group was established to identify policy,
          operational , and systems   issues. Varous activties are under way to resolve some of
          the concerns identified by the work group.

             Attached are additional comments. Thank you for the opportunity to comment
          on this report.



          Attchment
               Comments of the Health Care Financing Administration
                            on the Draft DIG Report
                       State Child Support Enforcement Criteria
                                for Targeting Medical Support"


Specific Comments


   State Child Support Enforcement agencies       are required to develop wrtten
   criteria to identify caseswith a high potential for obtag medica support
   This report implies that the wrtten criteria applies to new caes as well as to all
   existing cour orders. This is not the intent of the regulations. As set forth in
   45 CF 303. 31(b)(1) and (2), unless the custodial parent and the child(ren) have
   satisfactory health insurance other than Medicaid , State Chld Support
   Enforcement agencies are to petition the court for medical support in new court
   orders or modified orders. Therefore , it is not appropriate for the State Chld
   Support Enforcement agency to apply its own wrtten criteria to new cases or
   cases which require modifcation of existing orders for reasons other than
   medical support.

   States should apply the criteria to cases with existing medical support   orders
   where no other modification to medical      support orders is anticipated.   The
   regulations at 45 CFR 303. 31(b)(3) require that wrtten criteria be used to
   identify cases with a high potential for obtaining medical support in situations not
   covered under 45 CFR 303. 31(b)(1) and (2).

o Ths report refers to two previous report issued by OIG which indicate that over
  $32 milion annually could be saved if employer provided health insurance had
   been used to pay for the medical care of dependent children.

   It is unclear from this report if OIG is implyig that $32 millon could be saved
   if States develop and apply wrtten criteria for targeting cases with a high
   potential for medical support. Based on our review of the two previous reports
   we understand that the $32 miion applied to savings which could be realized if
   States enforced medical support in all cases included under 45 CFR 303. 31(b)(1),
   (2), and (3). If this is the case , the amount of savings to be realied by applying
   wrtten criteria would be less than $32 milion.
      , therefore, recommend that the report be revised to clarify that regulations
   require wrtten criteria be used to identify cases with a high potential for medical
   support where a court order exists and there is no other modifcation anticipated.
   We also recommend that the $32 milion estimate be clarified.
